Peace Corps
Office of Inspector General




Final Program Evaluation Report:
     Peace Corps/Suriname

                              July 2010
                           EXECUTIVE SUMMARY
Over 300 Volunteers have served the people of Suriname since the Peace Corps program
was launched in 1995. Current volunteer assignments focus on community economic
development and health education programs. In recent years, Peace Corps Suriname has
faced challenges developing and maintaining effective volunteer assignments. A period
of high senior staff turnover also had an impact on the stability of post operations.

While obstacles remain, PC/Suriname has made progress increasing the effectiveness of
their operations and programs and furthering Peace Corps’ goals. Suriname government
representatives told the OIG that they have positive working relationships with Peace
Corps staff. They believe Volunteers have good language skills, are well-integrated into
their host communities, and are making contributions to development. Government
officials would like a more structured collaboration with Peace Corps, with program
sectors and Volunteer assignments more directly centered on ministry goals.

PC/Suriname’s projects have broadly focused on community development. Within the
last two years, the post has developed two distinct projects and has strengthened
relationships with project partners. Peace Corps has also partnered with national and
international non-governmental organizations (NGO), which provides more structured
assignments for Volunteers, capacity building opportunities for their communities, and
opportunities for cost-sharing. However, PC/Suriname does not have current agreements
with project partners; this has created some confusion about roles and responsibilities of
the cooperating parties.

PC/Suriname is working to address site development challenges and programming
support, but our review found that PC/Suriname does not adequately engage host
communities during site development, and is not adequately assessing host community
needs or their capacity to host a Volunteer. Volunteers reported that host communities do
not understand Volunteer roles and are not motivated to work with them.

PC/Suriname is not providing adequate technical training to Volunteers and some
Volunteers are receiving funds for their projects through unauthorized channels.
Volunteers are familiar with the Emergency Action Plan (EAP) and procedures.
However, staff members require additional training to ensure they are prepared to carry
out their responsibilities during the activation of an EAP. Volunteer housing did not
consistently conform to established housing criteria, and we recommended that staff
inspect Volunteer housing and ensure it meets the criteria prior to the Volunteer’s arrival.

Our report contains 23 recommendations intended to strengthen PC/Suriname
programming operations and correct the deficiencies detailed in the accompanying report.
Our recommendations address project partnerships, site development, Volunteer training
and support, and the Emergency Action Plan. In order to address staff turnover and
leadership challenges we have recommended that that the region and post establish a
succession plan for leadership positions.


Final Program Evaluation Report: Peace Corps/Suriname                                        i
                                                   TABLE OF CONTENTS


EXECUTIVE SUMMARY...................................................................................... i

HOST COUNTRY BACKGROUND ...................................................................... 3

PEACE CORPS/SURINAME PROGRAM BACKGROUND ................................. 4

OBJECTIVES, SCOPE, AND METHODOLOGY ................................................. 5

EVALUATION RESULTS .................................................................................... 7
P R OG R A M M I NG .............................................................................................................................................. 7

C R OSS -C UL T UR A L U NDE R ST A NDI NG ...........................................................................................................14

T R A I NI NG ......................................................................................................................................................15

V OL UNT E E R S UPPOR T ..................................................................................................................................17

M A NA G E M E NT C ONT R OL S ...........................................................................................................................20


POST STAFFING ............................................................................................... 23

INTERVIEWS CONDUCTED............................................................................. 24

LIST OF RECOMMENDATIONS....................................................................... 25


APPENDICES




Final Program Evaluation Report: Peace Corps/Suriname                                                                                                              ii
                    HOST COUNTRY BACKGROUND
Suriname is situated on South America’s northeastern coast. It was first colonized by the
Spanish, settled by the British, and then became a Dutch colony in 1667. Independence
from the Netherlands was granted in 1975.

Suriname’s population of approximately 481,000 is made up of several distinct ethnic
groups. East Indians or Hindustani form the largest group at 37%, Creoles 31%,
Javanese 15%, Maroons (descendents from escaped slaves) 10%, and Amerindians 2% of
the population. The remaining population includes Chinese, Europeans, and Brazilian
immigrant workers who have arrived in Suriname in recent years. There is also a
significant Surinamese population of approximately 334,000 living in the Netherlands

Suriname’s official language is Dutch. English is widely spoken and the lingua franca, or
language most commonly used to communicate between persons not sharing a mother
tongue, is Sranang Tongo, also sometimes called Taki-Taki. In addition, several ethnic
groups speak their own language. Approximately 90% of the population lives either in
the capital Paramaribo or in the districts along the coast. Most of the country’s land area
lies in the northeastern flank of the Amazon forest and is only accessible by dirt roads,
boats, or airplanes. This remote interior region is home to primarily Amerindian and
Maroon settlements established along the maze of river systems fed by the Amazon. The
communities are strongly tied to their indigenous Amerindian and African heritage, and
tribal structures and customs are evident.

Coastal roads connect Suriname with Guyana and French Guiana, however no roads pass
south through the Amazon into Brazil. This effectively isolates Suriname from the rest of
South America. Suriname’s commercial activities with the Netherlands and the Dutch or
English-speaking Caribbean has led to closer relationships with the Caribbean countries
to the north than with its Spanish or Portuguese-speaking neighbors to the south.

Since independence from the Netherlands in 1975, Suriname has weathered coups by
differing political factions and civil wars. Many roads, bridges and district governmental
centers in the interior remain damaged or destroyed following civil strife in the 1980s and
early 1990s. Social service delivery to the interior region has been characterized by scant
investment in health care and educational infrastructure. After more than a decade of
military or one-party rule, a democratically elected government - a four-party New Front
coalition came to power in 1991, and has ruled since; the coalition expanded to eight
parties in 2005.
     PEACE CORPS/SURINAME PROGRAM BACKGROUND
Peace Corps and Suriname share an active country agreement signed in 1995. In 1995,
the Peace Corps opened an office in Paramaribo to support country programs in both
Guyana and Suriname; the Guyana program came under independent management in
1997. Since its inception, over 300 Volunteers have served in Suriname’s capital,
districts, and interior Maroon and Amerindian communities.

PC/Suriname’s sponsoring host ministry is the Ministry of Regional Development 1,
which oversees the advancement of the interior of the country. PC/Suriname also works
in partnership with the Ministry of Health and was working to further develop its
partnership with the Ministry of Tourism. Additionally, PC/Suriname partners with
international, regional, and indigenous NGOs.

PC/Suriname places Volunteers primarily in Maroon and Amerindian communities,
which are geographically isolated within the country’s interior. These communities have
limited educational and job opportunities. Thus, many people, under-educated men and
youth in particular, are shifting from rural communities to the urban centers in search of
job opportunities. At the onset of this evaluation, there were 36 Volunteers serving in
Suriname; there is one Trainee class each year. Currently, Peace Corps Volunteers in
Suriname support the following two projects:

Community Health Education
Community Health Education Volunteers work with communities to assess their needs
for health education and water and sanitation systems. They work with village health
promoters, health clubs, and community members to develop and deliver informal and
formal trainings and activities on nutrition, sexual and reproductive health, HIV/AIDS,
sanitation, and life skills. They also work with schools and communities on gardens and
composting, and with support from partner organizations, assist communities to build
water and sanitation systems.

Community Economic Development
Community Economic Development Volunteers work with community groups, business
organizations, NGOs, and individuals to promote community planning, project design
and management, small business development, and sound business practices. Volunteers
work with men, women, and youth to develop leadership, business and information
technology skills, agricultural products, and tourism products and services.




1
 Although, the sponsoring host ministry is the Ministry of Regional Development, the country agreement
was signed with the Ministry of Foreign Affairs.
             OBJECTIVES, SCOPE, AND METHODOLOGY
The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps/OIG was established under the
Inspector General Act of 1978 and is an independent entity within the Peace Corps. The
Inspector General (IG) is under the general supervision of the Peace Corps Director and
reports both to the Director and Congress.

The Evaluation Unit within the Peace Corps Office of Inspector General provides the
agency with independent evaluations of the management and operations of the Peace
Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.

For post evaluations, we use the following researchable questions to guide our work:
•   To what extent has the post developed and implemented programs intended to
    increase the capacity of host country communities to meet their own technical needs?
•   To what extent has the post implemented programs to promote cross-cultural
    understanding?
•   To what extent does training provide Volunteers the necessary knowledge, skills, and
    attitudes to integrate into the community and perform their jobs?
•   To what extent has the post provided adequate support and oversight to Volunteers?
•   To what extent are post resources, agency support, and oversight effectively aligned
    with the post's mission and program, and agency priorities?

The Office of Inspector General Evaluation Unit announced its intent to conduct an
evaluation of PC/Suriname on January 23, 2009. The evaluation team conducted the
preliminary research portion of the evaluation January 26 – February 27, 2009. This
included review of agency documents provided by headquarters and post staff and
interviews with management staff representing the region and the Office for Overseas
Programming and Training Support (OPATS). Fieldwork occurred March 1 - 21, 2009,
and was comprised of interviews with: senior post staff in charge of programming,
training, and support; the U.S. Ambassador; the U.S. Embassy Regional Security Officer;
non-governmental project partners; and host country government ministry officials. 2 In
addition, we interviewed a stratified judgmental sample of 47% of currently serving
Volunteers based on their length of service, site location, project focus, gender, age, and
ethnicity. Sixteen Volunteers were selected for the sample and one additional Volunteer
requested and was granted an interview. The majority of the Volunteer interviews
occurred at the Volunteers’ homes, and their homes were inspected using post-defined
site selection criteria.

2
 The OIG briefed the PC/Suriname country director, programming and training officer and incoming
administrative officer of its program evaluation findings on March 20, 2009. The OIG briefed the Inter-
America and Pacific (IAP) regional management and representatives from OPATS and the Office of Safety
and Security on April 9, 2009.
Table 1: PC/Suriname Volunteer Demographic Data
                Project                              Percentage of Volunteers
 Community Economic Development                               50%
 Community Health Education                                   50%
                Gender                               Percentage of Volunteers
 Male                                                         53%
 Female                                                       47%
                  Age                                Percentage of Volunteers
 25 or younger                                                58%
 26-29                                                        25%
 30-54                                                         6%
 55 and over                                                  11%
Source: PC/Suriname Volunteer Roster, January 2009

The period of review for a post evaluation is one full Volunteer cycle (typically 27
months).

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by Council of the Inspectors General on Integrity and Efficiency. The findings
and recommendations provided in this report have been reviewed by agency stakeholders
affected by this review.
                           EVALUATION RESULTS
P R OG R A M M I NG

The evaluation assessed whether the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical
needs. To determine this, we analyzed the following:
    •   The coordination between Peace Corps and the host country in determining
        development priorities and Peace Corps program areas.
    •   The existence of project plans based on host country development priorities and
        the Volunteers’ understanding of the project plan goals and objectives.
    •   Whether Volunteers are placed in sites where they can contribute meaningfully to
        meeting host country development priorities.
    •   Relationships with counterparts that enable Volunteers to have productive work
        assignments that meet host country development priorities.

From the program’s inception in 1995 until 2006, PC/Suriname’s projects had a broad,
rural community development focus. A 2002 agency project review of the Non-Formal
Rural Community Education project activities determined that the project’s broad
activities created challenges with administrative coverage and priority setting, ultimately
leading to poor programming and training support.

In January and August of 2006, the Community Health Education (HE) and Community
Economic Development (CED) project plans were initiated. In conjunction with Office
of Programming and Training Support (OPATS) formal project reviews held in 2008,
both projects established Project Advisory Committees (PACs) and conducted initial
meetings with stakeholders. Programming staff and post leadership described these
meetings as useful for setting direction for the projects and establishing relationships with
ministry partners and NGO stakeholders.

In addition to working with Surinamese Ministry partners, PC/Suriname has partnered
with several large multinational non-governmental organizations. The goal for these
partnerships has been to: provide more structure to Volunteer assignments; maximize
resources; target areas identified by different stakeholders; and to approach development
in Suriname collaboratively,

Representatives from the Ministry of Regional Development told the OIG that they enjoy
positive working relationships with Peace Corps staff, but over time are looking towards
a more structured collaboration centered on the ministry’s goals. They believe
Volunteers have good language skills, are well-integrated into their host communities,
and are making contributions to development, though “not necessarily strategically or
sustainably.” NGO partners stated that they found value in their partnerships with Peace
Corps, that Peace Corps was “a reliable partner,” and “an organization you could trust.”
They found Volunteers to have good communication skills and the trust of their
communities.
PC/Suriname’s comprehensive approach to Suriname’s development by leveraging
international and local partnerships is an encouraging one, as the Agency looks globally
for new strategies for expansion and opportunities for greater impact. However, to
achieve successful outcomes, it is imperative that all cooperating parties understand the
end goal vision as well as their related roles and responsibilities. As noted in
Programming and Training (P&T) Booklet 1, “working in partnership creates the greatest
opportunity for Volunteers and community partners to work productively together toward
sustainable changes” and “strategic planning is the glue that cements the partnerships
between the Peace Corps and its host-country partner agencies.”

PC/Suriname does not have agreements with some of its project partners and many
existing agreements are out–of–date.

PC/Suriname works with multiple non-governmental project partners and Volunteers
work with these organizations in a variety of different roles. Some Volunteers are placed
directly with the partner organization and are incorporated into project teams that support
the organization’s mission. More often, Volunteers work as extensionists in capacity
building projects within the context of their Peace Corps project. One partner explained
that Peace Corps’ participation provides it with entrée into a community that needs
assistance, while in turn, it provides specialized technical training for the Volunteer and
host community members. This allows both organizations to meet their goals and
ultimately transfer capacity to the host community.

Peace Corps uses different levels of program and project agreements when working in a
host country. The country agreement is the formal agreement signed by the Peace Corps
Director and host government that permits Peace Corps to operate in the country.
Additionally, interagency agreements, memoranda of understanding, or project partner
agreements are used to further clarify roles, responsibilities, and expectations between the
entities.

The three memoranda of understanding (MOU) that the post provided to the OIG as part
of this evaluation were not applicable to the current project sectors or partners. No
documentation was provided that defined the current role of Peace Corps and the partner
organization, be it ministry partner or NGO. In interviews, both ministry and NGO
partners expressed a desire for a better defined, more structured collaboration with Peace
Corps, and for formal agreements for the Volunteers who work with their organizations.

At the time of this evaluation, PC/Suriname did not seek formal feedback on performance
for Volunteers placed in partner organizations. Project partners reported that they would
welcome opportunities to discuss Volunteer performance and Peace Corps-partner
collaborations. They raised questions regarding the delineation of responsibilities
between Peace Corps and partner organizations for both establishing the Volunteer’s
work responsibilities and for their support. This has resulted in Volunteers working on a
number of Peace Corps initiatives that did not fall within the partnering organization’s
mission and were not supported by the partnering organization. The mixed messages
ultimately led to confusion for the host community.

Peace Corps Manual (PCM) section 103.4.1 states that the Peace Corps may enter into
interagency agreements that are consistent with applicable law and the purposes and
goals of the Peace Corps. PCM section 103.4.2 further states that “no funds may be used
and no activities may be undertaken pursuant to an interagency agreement until the
agreement has been approved and authorized as provided in this manual section.” While
PC/Suriname does not partner with other U.S. agencies, the Peace Corps Office of
General Counsel (OGC) uses PCM 103 as the governing policy for agreements with non-
U.S. government partners as well. Further, OGC has developed a standard Volunteer
assignment MOU template, which has been disseminated to all posts through the regions.
This template outlines the roles and responsibilities of Peace Corps and the partnering
organization with respect to their collaborative agreement to select, supervise, and
support Volunteers over the course of their assignments.

Indicators of a High Performing Post (IHPP) section 6.2 articulates the need for MOUs
and the importance of clearly defining “all important aspects, rights, and responsibilities
of the relationship”, and also lists a number of elements that should be contained within
the MOU as follows:

       As a matter of both guidance and protection for the Volunteer, as well as
       the Peace Corps and the partner agency, there needs to be a formal
       memorandum of understanding signed by the country director and the
       responsible authority from the government ministry or NGO agency that is
       accepting or sponsoring PC Volunteers. This MOU should clearly set
       down the roles and responsibilities of the cooperating parties and serve as
       a basis and source of reference for the cooperative relationship established
       between the two (or more) parties.


While partnering provides the potential of opportunities for greater impact, collaboration,
cost-sharing, and more structured assignments for Volunteers, without a clear agreement
establishing the nature of the cooperative relationship, there is also the potential for
confusion, competing priorities, and risk to the agency.

               We recommend:

               1. That the post, in consultation with OPATs
                  Partnership Development Unit, review current
                  partnership agreements and make adjustments
                  where necessary.

               2. That the post, in consultation with General Counsel,
                  develop agreements or memoranda of
                  understanding with all partner organizations.
                3. That the Agency formalize and widely disseminate
                   the existing Volunteer assignment MOU template.

                4. That the Agency develop guidelines that address
                   partnerships with NGOs, government ministries and
                   other entities, including circumstances when the
                   MOU should be used and when the post should seek
                   advice from OGC.

PC/Suriname is working to address Volunteer site development challenges.

Prior safety and security assessments have flagged concerns with the post’s site
development process. Concerns about site selection and monitoring have been raised by
Peace Corps Safety and Security Officers (PCSSOs) since 2005. Suriname scored lower
than the global average in the 2008 Biennial Volunteer Survey for the following
questions:

    •   “When you arrived at your community, how prepared for your arrival were the
        host people with whom you work?”– 57% responded adequately to very well,
        compared to a global average of 74%.
    •   “How well prepared was your site upon your arrival?” – 51% responded
        adequately to very well, compared to a global average of 79%.

Our Volunteer and staff interviews reflect that the post is working toward making
improvements in its site development process. One of post’s stated goals in its 2008
IPBS was to, “better define the roles of Peace Corps Volunteers in Suriname.” Post staff
reported they have focused on building relationships with partner organizations and have
sought to provide more structure to Volunteer assignments. The responses to our
interviews of Volunteers in two cohorts indicate that recent Volunteers are more familiar
with project goals and believe their activities relate to project goals, which is an
indication that site development has improved. However, our fieldwork has identified
areas in need of improvement.

Responses indicating the percentage of Volunteers rating “moderately” or better
                                         Overall         SUR 13 SUR 14 3
 How satisfied are you with your
                                           82%            67%        90%
 site placement?
 How familiar are you with the
                                           88%            67%       100%
 goals of your project?
 How well do your activities relate
                                           71%            50%        80%
 to the project goals/objectives?
Source: 2009 OIG Interviews



3
 The SUR13 cohort was sworn in-to service on August 3th, 2007. The SUR 14 cohort was sworn into
service on August 1st 2008.
PC/Suriname does not fully assess host communities or adequately engage them
during the site development process.

In Programming and Training (P&T) Booklet 5, Peace Corps defines four areas of site
development: (1) identification, (2) selection, (3) Volunteer placement and (4) ongoing
partnership. P&T Booklet 5 describes strategies for Peace Corps staff to engage each
project partner by: orienting the community to the Peace Corps’ development philosophy
and project plan, obtaining agreement on expectations for the duration of Peace Corps’
involvement and each partner’s roles and responsibilities, including partners in
monitoring and evaluation processes, and agreeing when the Peace Corps’ support is no
longer needed. However, post has not fully integrated these strategies into its Site
Identification and Preparation (SIP) manual.

During our visit to post, PC/Suriname was in the process of developing a Site
Development Procedures manual (SIP). We reviewed the post’s draft SIP manual, which
details the major components of PC/Suriname’s site development process. We also
interviewed post staff and Volunteers about the site development process.

The post’s SIP manual defines the steps in the site identification and preparation process
and includes most of the elements recommended in P&T Booklet 5. However, it did not
include a section for ongoing partnership. It also did not include a discussion of
Volunteer placement or site selection strategies. Additionally, while the site assessment
form included a section on programmatic viability, the criteria could be improved to more
fully assess community needs, community receptivity, and readiness for hosting a
Volunteer.

Staff reported that site development for the SUR 14 cohort was improved over previous
inputs because they obtained more specific details about community needs and Volunteer
assignments. Additionally, PC/Suriname has included currently serving Volunteers in the
site development process in its recent site assessments. Their involvement ranges from
helping new communities fill out the site assessment forms, to participating in site
development visits.

However, challenges in identifying viable and meaningful assignments still exist. For
example one staff member explained, “If staff goes [to the community] they will agree to
everything staff is saying, so it makes it harder for us to understand if they are really
willing to work with a Volunteer.” Also, staff reported they were aware that Volunteers
received pressure from communities to divert from their project plan to implement
projects with a higher community priority. Specifically, one staff member explained,
“Once a Volunteer gets placed there, [the community] wants bigger and better things, like
electricity, and sometimes pressures the Volunteer. For example, if you won’t help us get
solar panels, we won’t help you with your project.”

PC/Suriname was aware of issues its staff and Volunteers faced in site development.
Engaging community members and counterparts in the site development process should
be a priority activity.
                  We recommend:

                  5. That the post incorporate Program and Training
                     Booklet 5 strategies for on-going partnership with
                     the community into its site development manual,
                     and align staff training programs accordingly.

                  6. That the post clearly define the criteria used to
                     assess community receptivity and readiness for
                     hosting a Volunteer and include this criteria in its
                     site assessment activities.

Host communities do not understand Volunteer roles and are not motivated to work
with them.

P&T Booklet 2 explains “in the planning process, it is important to spend time with host-
country agency partners to identify who will be the Volunteer’s counterparts and
supervisors. These key relationships are critical to the success of projects and Volunteer
assignments.”

PC/Suriname defines “counterpart” as the Volunteer’s main contact who introduces the
Volunteer to the community. This point person is generally selected by the host
community and the relationship is expected to last the length of the Volunteer’s service. 4
However, Volunteers were encouraged to develop relationships with multiple community
partners with whom the Volunteer will work on projects.

Volunteers we interviewed consistently reported that their communities did not
understand Peace Corps Volunteer roles or the types of projects on which Volunteers
should focus. Ten of 17 Volunteers interviewed highlighted the lack of motivation of
their community or counterparts as one of his/her major challenges. Programming staff
echoed this sentiment. They reported that Volunteers complained of low community
motivation, a lack of community cohesiveness, or a lack of community ownership of a
project. 5 Programming staff reported that they hold counterpart conferences, but that
they do not spend sufficient time preparing a community to work with a Volunteer
because of the limited amount of time they spend in the community.

All Volunteers reported having at least one community partner. However, only 57% (8
of 14) of Volunteers interviewed as part of this evaluation considered their working
relationship with their counterparts to be “average” or better (a score of 3, 4, or 5 on a
five point scale). Volunteers reported the following challenges concerning their working
relationships with counterparts: that the counterpart was too busy to work with them, the

4
  Due to village tribal/organizational structures, it is often difficult, especially in new communities, for
Peace Corps staff to identify a counterpart for the Volunteer. Counterparts are put forth by the host
community.
5
  Programming staff and Volunteers explained that members of a community feel responsible for their own
individual development but not for the development of the community as a whole.
counterpart spent considerable time out of the village or was looking to move out of the
village/and had already left the village, or the counterpart was consumed with family
activities, like taking care of children.

Improving the community assessment process and addressing ongoing project partnership
will help PC/Suriname identify and place Volunteers in the most appropriate
communities. The Volunteer’s will also require additional training and support to
educate communities about the mission of Peace Corps and their role in the community.

       We recommend:

               7. That the post, in consultation with OPATS, identify
                  agency best practices for successful community
                  partnerships and include these strategies in its
                  Volunteer training and support programs.

               8. That the post poll Volunteers on the successful
                  strategies they have employed to identify community
                  partners and educate communities on their role and
                  that it include these strategies in its Volunteer
                  training and support programs.

Some Volunteers received funds for community projects from unauthorized sources.

PC/Suriname has active projects in the Peace Corps Partnership Program (PCPP) which
is designed to identify and accept financial donations to support, within the context of the
goals of the Peace Corps, small-scale, community-initiated development projects.
Volunteers also seek funding for community projects through additional outside funding
sources. Volunteers write proposals and submit them directly to corporations operating
in Suriname such as Suralco, Staatsolie, or to international organizations such as Rotary
International, Lions Club, and World Wildlife Fund. Peace Corps program managers and
program assistants liaise with the organization to which the Volunteers submit proposals
and as needed, review proposals, conduct research on the Volunteer's behalf, or
recommend which organization to submit a proposal.

Peace Corps Manual section 720.3.3 states:

       OPSI [Office of Private Sector Initiatives] is the only Peace Corps office
       authorized to generate support and accept donations for a Partnership
       project. PCVs are not authorized to accept donations on behalf of the
       Peace Corps.”

Per agency policy, Volunteers may never directly receive funds for community projects
unless it is done through the Partnership Program. Agency officials responsible for PCPP
said that this is not only to preserve the spirit of Peace Corps as a Volunteer organization,
but also to maintain the safety and security of Volunteers, and to mitigate risk to the
agency for liability related to the fraud or abuse of funds. PCPP policies require that
Volunteer projects meet a pressing community need, be community initiated and
directed, and include a community contribution at least 25% of the total project cost.

In interviews, Volunteers stated they held funds intended for community projects if the
funding organization required it, and that they were unclear of Peace Corps expectations
for how to handle funds they had received.

                We recommend:

                9. That the country director work with OPSI to
                   institute a process to ensure that all funding for
                   community projects is acquired and reported on in
                   accordance with agency policy.

                10. That the post train Volunteers on the policies related
                    to funding for community projects.

C R OSS -C UL T UR A L U NDE R ST A NDI NG

The second objective of a post evaluation assesses whether the Peace Corps country
program promotes a better understanding of Americans on the part of the people served.
Cultural exchange is an integral part of the transfer of knowledge and skills that occurs
between host-country community partners and Volunteers. To understand the extent to
which the post has implemented programs and activities to promote cross-cultural
understanding, we interviewed Volunteers, post and headquarters staff, Ministry officials,
project partners, and we reviewed training and evaluation materials.

In our interviews, project partners stated that Volunteers have good language skills, and
were integrated and accepted in their communities. Correspondingly, 100% of Volunteers
interviewed rated themselves average or better (3, 4 or 5 on a 5 point scale) on
understanding cross-cultural issues. PC/Suriname scored higher than global averages on
the 2008 Biennial Volunteer Survey (BVS) question regarding increasing the capacity of
host country counterparts by giving them a better understanding of Americans. Eighty
percent of respondents said that their assignment was average, better than average, or
exceptional at providing host country nationals a better understanding of Americans
compared to the global average of 67.9%.

The communities in which PC/Suriname Volunteers live and work are primarily rural
Maroon or Amerindian communities located in the interior of the country. From a
cultural perspective, the variety of communities where Volunteers work poses different
integration challenges for the Volunteers. To prepare Volunteers for the specific
community they will serve, PC/Suriname follows a community-based training model.
We found that at the time of our evaluation visit, the training manager had not visited the
Upper Marojinwe region, where the post was expanding its programs, prior to Volunteers
being placed there. His first visit to this region occurred concurrently with that of the
OIG. Following the visit, the training manager stated that, in his estimation,
PC/Suriname's current pre-service training would not adequately train and prepare
Volunteers for the cultural practices of that region, specifically the level of traditionalism,
the community’s reliance on traditional medicine men, and dialectical language
differences among the communities. Additionally, during interviews with the OIG,
Volunteers placed in Amerindian communities voiced frustration with the lack of
accurate cross-cultural information provided to them before arriving at site.

While cross-cultural training scores have improved from one cohort to the next, we
encourage the post to assess the systemic risks of expanding into new communities
before moving forward with a decision.

                 We recommend:

                 11. That the post develop and implement a mechanism
                     to fully assess the community cultural makeup,
                     traditions, and other related factors for communities
                     that host Volunteers.

                 12. That the post use this information to develop pre-
                     service training to prepare future Volunteers for the
                     challenges they will face during service in their
                     community.

T R A I NI NG

The third objective of the post evaluation is to answer the question “to what extent does
training provide Volunteers the necessary knowledge, skills, and attitudes to integrate
into the community and perform their jobs?” To determine the extent to which this goal
is reached, the following factors are considered:

    •    The existence of training goals, competencies, and learning objectives that help a
         post understand the skills Volunteers need.
    •    The types of training Trainees and Volunteers receive, the topics covered during
         those training sessions, and whether training targets are met.
    •    The feedback on the effectiveness of training in providing the skills and
         knowledge needed for successful Volunteer assignments.

PC/Suriname does not provide adequate technical training to Volunteers.

In the 2008 Biennial Volunteer Survey (BVS), PC/Suriname’s training effectiveness
scores indicated the need to immediately address serious deficiencies in pre-service
training (PST) programs. In all areas examined, favorable scores 6 for PC/Suriname were
lower than global. Scores were lowest in the areas of preparing Volunteers to: perform

6
 Favorable scores were derived from averaging “adequate,” “effective” and “very effective” for sets, Peace
Corps global, and PC/Suriname.
technical aspects of their work, work with project goals and objectives, monitor project
goals and outcomes, and work with counterparts.
                                                  PC/Suriname %      PC Global %
                                                      of those          of those
    How effective was your PST in                   responding        responding
    preparing you to:                               Adequate,         Adequate,        Difference
                                                   Effective and     Effective and
                                                   Very Effective    Very Effective
    c. Work with counterparts                          36.1%             69.5%            33.3%
    e. Perform technical aspects of your work          16.7%             72.5%            55.9%
    f. Work with project goals and objectives          36.1%             82.7%            46.6%
    h. Monitor project goals and outcomes              41.7%             76.0%            34.3%
Question B2 on Biennial Volunteer Survey for PC/Suriname compared to PC/Global

The information we obtained in interviews with currently serving Volunteers was
somewhat more positive than what was reflected in the 2008 BVS, but the effectiveness
of language and technical training during PST was still low. None of the Volunteers in
the SUR13 cohort rated the technical training as effective or better. However, there was
a significant improvement between the SUR13 and SUR14 trainee groups. While still
low, the Volunteers serving in the health sector rated their technical training as more
effective than the Volunteers serving in the business sector.
                           Suriname Overall 7              SUR 13 8                   SUR 14 9
     Regarding PST,           %                         %                           %
    how effective was     Favorable Average          Favorable      Average      Favorable   Average
    PST in each of the      Scores    Score           Scores         Score        Scores      Score
     following areas
      Language                 71%          3.4         67%            3.2          70%           3.3
      Culture                  81%          3.3         67%            2.8         100%           3.8
      Safety/Security          94%          3.6        100%            4.0          90%           3.4
      Medical/Health          100%          4.4        100%            4.0         100%           4.5
      Technical                41%          2.5          0%            1.5          70%           3.1
Source: 2009 OIG Interviews

                           Suriname Overall                 Health10                  Business 11
     Regarding PST,          %                          %                           %
    how effective was     Favorable Average          Favorable      Average      Favorable Average
    PST in each of the     Scores     Score           Scores         Score        Scores      Score
     following areas
      Language                 71%          3.4         75%            3.5          67%           3.2
      Culture                  81%          3.3         86%            3.6          78%           3.1
      Safety/Security          94%          3.6        100%            3.8          89%           3.6
      Medical/Health          100%          4.4        100%            4.5         100%           4.2
      Technical                41%          2.5         50%            2.9          33%           2.1
Source: 2009 OIG Interviews

7
  N=17, except for Cultural training where n=16
8
  N=6
9
  N=10, except for Cultural training where n=9
10
   N=8, except for Cultural training where n=7
11
   N=9
The OIG has found that delivering effective technical training is consistently a challenge
for Peace Corps posts worldwide. The Training Design and Evaluation (TDE) process
developed by OPATS is intended to provide a structured methodology to ensure that
programming and training is aligned, and Volunteers are working towards competencies
needed for a successful service. It is intended to provide a mechanism to assess and
monitor trainee progress against relevant targets.

PC/Suriname has been working through the TDE process since an OPATS technical
assistance visit in 2007. Post leadership reported that programming and training staff has
focused their efforts towards completing a task analysis, establishing Knowledge, Skills,
and Abilities (KSAs), and developing core and project sector competencies as part of the
TDE process. At the time of evaluation fieldwork, the agency-mandated TDE process
had not been fully implemented. PC/Suriname did not have specific training targets that
could be used to assess and monitor trainee progress.

       We recommend:

       13. That the post provides core and sector competencies and related
           learning objectives to confirm implementation of the TDE process.

       14. That the post establish training targets and use the targets to
           assess Trainees/Volunteers.

V OL UNT E E R S UPPOR T

This evaluation attempts to answer the question “to what extent has the post provided
adequate oversight and support to Volunteers?” To determine this, the OIG evaluation
assesses numerous factors, including staff communications to Volunteers; project and
status report feedback; medical support; safety and security support elements such as site
visits, the Emergency Action Plan (EAP), the handling of crime incidences; and the
adequacy of the Volunteer living allowance.
In reviewing crime reporting and handling, medical support, and the Volunteer living
allowance, the OIG did not find significant areas of concern that would warrant action by
the post. Volunteers have generally been satisfied with the way the staff responded to
their report of a crime, and 100% of the Volunteers interviewed stated that they would
report a crime to Peace Corps if it occurred. Support provided by the PCMO was rated
the highest among all the staff members, with an average rating of 4.8 on a 5 point scale.
Thirteen of the 16 Volunteers we interviewed reported that their living allowance was
adequate for them to maintain a safe and healthy lifestyle.
Overall, Volunteers reported that they were supported by PC/Suriname staff. Volunteers
commented that the office atmosphere is friendly and welcoming. Ten of sixteen of the
Volunteers interviewed rated PC/Suriname staff as “effective” or better at helping them
to adjust to life as a Volunteer, with an average rating of 3.1. For overall support, the
average ratings for staff are as follows:
          Table X: Responses on Perception of Volunteer Support 12
                              Average Rating for       % of Volunteers rating
Area
                                  Support            “average support” or better
Leadership                           4.1                        100%
Programming                          3.3                         83%
Training                             3.3                         80%
Safety and Security                  3.9                         88%
Medical                              4.8                        100%
Administrative 13                    4.2                           100%
Source: 2009 OIG Interviews


PC/Suriname needs to assess Volunteer program support workloads and redistribute
them among the staff as necessary.

Program managers received the lowest ratings on level of support during Volunteer
interviews. Only 11 of 17 Volunteers interviewed found the support from their program
managers to be average or better; however, this score did improve from one cohort to the
next. Volunteers raised concerns with program managers’ availability, timeliness of
response and follow-through. However, all Volunteers stated that their program assistant
provided average or better support.

Indicator 4.8 of IHPP states that “Staff and Volunteers alike recognize the distinction
between when the staff can and should help Volunteers and when Volunteers can and
should help themselves. Staff members are able to act in both cases, i.e., to provide help
directly and to help Volunteers help themselves, as appropriate.”

Eleven of 15 Volunteers (73%) interviewed stated that the number of site visits they
received was adequate. Ten of the 15 (67%) found the visits to be moderately effective
or better. Some Volunteers questioned why staff scheduled site visits, but then canceled
because of the cost. Administrative staff recognized that there was not sufficient
coordination in the budgeting process to support site development and Volunteer support.
This will be addressed further in Management Controls.

IHPP also points out that “site visits are one of the most critical…parts of any staff
member’s job. They are staff’s principal tool for keeping in touch with and
understanding what’s going on in the field, what the Volunteer’s life is like, what
counterparts in the field think, whether projects are working on the ground, and what the
Volunteer’s concerns are.”

12
   The Leadership score was derived from the score for the country director; the Programming score was
derived by averaging the scores for the PTO, program managers, and programming and training assistants;
the Training score was derived from the score for the Training Manager; the Safety and Security score was
derived from the score for the safety and security coordinator; the Medical score was derived from the
Peace Corps Medical Officer; and the Administrative score was derived from the score for the
administrative officer.
13
   Five Volunteers responded to the question on administrative support as the majority of Volunteers in the
sample did not have recent or any experience with an administrative officer as that position had been vacant
for six months prior to this evaluation.
PC/Suriname recognizes that programming support could be improved. Staff were aware
that Volunteers in previously serving cohorts had been unhappy with the quality of staff
support. Post staff reported that program managers had not played a significant role in
the pre-service training activities for those groups and, therefore, trainees had not
established a trusting relationship prior to being placed at their sites.

Additionally, program managers reported that they had been tasked with a number of
time-intensive operational initiatives, including developing a site development manual,
implementing the TDE process, and building relationships with partner organizations.
The OIG commends these efforts and recognizes that their successful completion will
improve the Volunteer’s overall success and effectiveness. However, on-going Volunteer
support remains an important staff responsibility as other initiatives are completed .

               We recommend:

               15. That the post assess the work distribution of
                   programming staff and ensure that all functions are
                   covered.

               16. That the programming staff set clear expectations
                   during pre-service training about the support they
                   will provide to Volunteers and ensure those
                   expectations are met.

Staff were not prepared to perform their roles and responsibilities during an activation
of the EAP.

All of the Volunteers we interviewed were familiar with their EAP and procedures. Each
of the Volunteers interviewed at his or her house produced a copy of the most recent EAP
document and were able to name their consolidation point. However, during our
interviews we determined that three staff members were unfamiliar with their roles and
responsibilities when the EAP is activated. Peace Corps Manual section 350.3.1 requires
that the country director “ensure that PC staff and PCVs are prepared to respond
appropriately to emergencies at post.”

               We recommend:

               17. That the country director review with the staff all
                   required EAP responsibilities so they are fully
                   prepared to respond to emergencies at the post.

Volunteer housing failed to meet housing criteria.

Seven of the eight Volunteer houses inspected as part of this evaluation failed to meet at
least one and up to four of post’s housing criteria. The one Volunteer house that met all
standards had been significantly upgraded by a Peace Corps staff member. The two
criteria that were most often not met were: (1) all doors with outside access are of solid
wood and have a key lock (or padlock); and, (2) liquid propane gas cylinders are stored
outside the home.

However, 100% of Volunteers said that their current housing was average or better with
an average score given of 4.4, but many noted multiple problems with their houses upon
their arrival at site including missing boards, no latrine, and no water source (duro tank).

PCM section 270.5, Selection and Monitoring of Sites, states “Each V/T
[Volunteer/trainee] site should be inspected before the V/T’s arrival to ensure placement
in appropriate, safe, and secure housing and work sites.”

                We recommend:

                18. That the country director ensure that staff have
                    inspected all prospective Volunteer housing and that
                    it meets the post’s criteria before a Volunteer’s
                    arrival.

                19. That the country director ensure that staff have
                    inspected all current Volunteer housing and that it
                    meets post’s criteria.


M A NA G E M E NT C ONT R OL S

Another key objective of the post evaluation is to assess the post’s planning and oversight
of operations, staff management and training, relationships with headquarters offices and
the embassy, and performance reporting.

In reviewing staff performance appraisals, Volunteer performance reporting and
relationships with headquarters offices and the embassy, the OIG found no significant
areas of concern that would warrant action by the post.

Volunteers received training on performance reporting during pre-service training and an
in-service training. Overall, 94% of Volunteers interviewed reported that the information
they submit is of average reliability or better. However, some Volunteers raised concerns
to the OIG that the information they reported does not accurately reflect what they are
doing in the field.

According to all parties involved, the post maintains positive relationships with the U.S.
Embassy in Suriname and with Peace Corps headquarters offices. The region, the post,
and Volunteers agree that morale at the post has improved under the current leadership
and that post staff are actively committed to improving processes and procedures. Staff
reported that the addition of a weekly Volunteer support meeting has been helpful in
facilitating communication between the different staff functions.
Post staff and Volunteers reported that the office environment is friendly and supportive
but that staff communication and scheduling is disorganized and there are often last
minute changes. Issues with scheduling may be influenced by the sheer number of
partners with which PC/Suriname coordinates and relies on for cost-sharing.

PC/Suriname’s staffing turnover has contributed to the post’s challenges.

Between 2007 and our post evaluation visit in March 2009, PC/Suriname experienced
significant staffing changes, including a new administrative officer, country director,
programming and training officer, program manager for the Community Economic
Development project, training manager, financial assistant, and two new programming
and training assistants. The administrative officer position was vacant from September
2008 – March 2009. The function was supported by the post’s financial assistant with
some temporary duty support from headquarters. The current administrative officer
arrived at post in March 2009. The period of staff turnover was complicated by the fact
that post did not have a succession plan.

In the IPBS for FY2009-2011, PC/Suriname identified personnel management and staff
development as one of its three priorities. Many staff development opportunities have
been supported since 2007. OPATS, with support from the region, provided four
technical assistance visits to: (1) improve Volunteer training, (2) train Volunteers and
staff on diversity and develop staff communication through a session on the multicultural
workplace, (3) review the Community Health Education project, (4) review the
Community Economic Development project. Additionally, some PC/Suriname staff
members have attended a training managers’ conference, a youth development
conference, and overseas staff training. In the sample of performance appraisals reviewed
during this evaluation, nine of ten staff performance reviews were conducted on schedule
and contained written feedback.

Post does not have standard documented operating procedures. Following the OIG
evaluation, post identified in its FY10-12 IPBS that it needs to document standard
operating procedures so that staff and back-up staff understand who does what, when and
how, as well as the development of a staff handbook. IHPP 3.2 states “Peace Corps staff
know their responsibilities and rights, which are assembled in a readily accessible
personnel manual or handbook. All personnel have written job descriptions or statements
of work, with practical channels of supervision and responsibility. These are reviewed
periodically and tasks are changed or redistributed among staff or sections as
appropriate.”


               We recommend:

               20. That the post develop a staff handbook of standard
                   operating procedures.
               21. That region and post establish a succession plan for
                   leadership positions, such as overlapping the
                   country director and PTO positions for a training
                   period during the next transition.

PC/Suriname did not effectively use its budget to inform operations.

To ensure an effective control environment, GAO-01-1008G requires that management
has an appropriate attitude toward risk-taking and proceeds with new ventures, missions,
or operations only after carefully analyzing the risks involved and determining how they
may be minimized or mitigated. Additionally, as discussed in the previous section on
programming, agreements should be established with project partners.

The post did not effectively use its budget, including partner contributions, to inform
operational decisions. This situation likely occurred as a result of the absence of an
administrative officer at post. For example, it appears that partner organizations’ defrayal
of transportation costs influenced the post’s placement of Volunteers in remote sites.
However, at the time of evaluation fieldwork, the post did not systematically track
partner contributions.

The post identified in its FY10-12 IPBS that it needs to identify additional opportunities
to share costs with villages and partners for housing and transportation of Volunteers and
program managers to mitigate the expense of goods and travel. While the OIG
commends the post’s efforts to save costs to the agency, the appropriate controls must be
in place.

               We recommend:

               22. That post assess financial contributions of
                   partnerships and define the terms per agency
                   guidance.

               23. That post develop a risk analysis for expanding into
                   new areas and collaborating with partners and
                   make decisions accordingly.
                                   POST STAFFING

At the time of our field visit, PC/Suriname had 20 staff positions, one of which was
vacant. The positions included three U.S. direct hire employees (USDH), two foreign
service nationals (FSNs), and 15 personal services contractors (PSCs). The post also
employs temporary staff/contractors to assist with PST. We interviewed 10 staff
members.
                                   PC/Suriname Positions
                            Position                      Status      Interviewed
     Country Director                                   USDH               X
     Programming & Training Officer                     USDH               X
     Administrative Officer (vacant 9/08-3/09)          USDH
     Safety and Security Coordinator                    PSC                X
     PCMO                                               PSC                X
     Medical Assistant                                  PSC
     IT Specialist                                      PSC
     Program Manager/Health                             PSC                X
     Program Manager/Business                           PSC                X
     Program Assistant/Health                           PSC                X
     Program Assistant/Business                         PSC                X
     Training Manager                                   PSC                X
     Language Coordinator                               PSC
     Secretary/Receptionist                             PSC
     Financial Assistant (acting AO at time of visit)   FSN                X
     Motor pool Specialist                              PSC
     General Services Assistant                         PSC
     Cashier                                            FSN
     Driver                                             PSC
     Cleaner/Back-up Receptionist                       PSC
     Peace Corps Volunteer Coordinator                  PCV                X
       Data as of March 2009.
                            INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 17 Volunteers, 10 in-
country staff members, and 19 representatives from Peace Corps headquarters in D.C.,
the U.S. Embassy in Suriname, and Ministry officials and project partners.
                  Interviews Conducted with PC/Headquarters Staff,
                       Embassy Officials, and Project Partners
                           Position                           Organization
     Acting Regional Director and Regional Chief        PC/Headquarters
     Administrative Officer
     Acting Chief of Operations                         PC/Headquarters
     Regional Chief of Programming                      PC/Headquarters
     Peace Corps Regional Safety and Security Desk      PC/Headquarters
     Officer
     Country Desk Officer                               PC/Headquarters
     Technical Training Specialist                      PC/Headquarters
     Youth Development and Education Program            PC/Headquarters
     Training Specialist
     Evaluation Specialist                              PC/Headquarters
     Cross-Cultural and Diversity Training Specialist   PC/Headquarters
     Ambassador                                         U.S. Embassy in Suriname
     Regional Security Officer                          U.S. Embassy in Suriname
     Districts Commissioner                             Ministry of Regional
                                                        Development
     Policy Officer                                     Ministry of Regional
                                                        Development
     Secretary to the Minister of Health                Ministry of Health
     IICA Representative in Suriname                    Inter-American Institute for
                                                        Cooperation on Agriculture
     Education Specialist                               United Nations Children’s
                                                        Fund (UNICEF)
     Country Representative, Suriname                   Pan-American Health
                                                        Organization
     Representative                                     Federation for the
                                                        Development of the Interior
     Executive Director, Suriname                       Conservation International
       Data as of March 2009.
                      LIST OF RECOMMENDATIONS

1. That the post, in consultation with OPATs Partnership Development Unit, review
   current partnership agreements and make adjustments where necessary.

2. That the post, in consultation with General Counsel, develop agreements or
   memoranda of understanding with all partner organizations.

3. That the Agency formalize and widely disseminate the existing Volunteer assignment
   MOU template.

4. That the Agency develop guidelines that address partnerships with NGOs,
   government ministries and other entities, including circumstances when the MOU
   should be used and when the post should seek advice from OGC.

5. That the post incorporate Program and Training Booklet 5 strategies for on-going
   partnership with the community into its site development manual, and align staff
   training programs accordingly.

6. That the post clearly define the criteria used to assess community receptivity and
   readiness for hosting a Volunteer and include this criteria in its site assessment
   activities.

7. That the post, in consultation with OPATS, identify agency best practices for
   successful community partnerships and include these strategies in its Volunteer
   training and support programs.

8. That the post poll Volunteers on the successful strategies they have employed to
   identify community partners and educate communities on their role and that it include
   these strategies in its Volunteer training and support programs.

9. That the country director work with OPSI to institute a process to ensure that all
   funding for community projects is acquired and reported on in accordance with
   agency policy.

10. That the post train Volunteers on the policies related to funding for community
    projects.

11. That the post develop and implement a mechanism to fully assess the community
    cultural makeup, traditions, and other related factors for communities that host
    Volunteers.

12. That the post use this information to develop pre-service training to prepare future
    Volunteers for the challenges they will face during service in their community.
13. That the post provides core and sector competencies and related learning objectives to
    confirm implementation of the TDE process.

14. That the post establish training targets and use the targets to assess
    Trainees/Volunteers.

15. That the post assess the work distribution of programming staff and ensure that all
    functions are covered.

16. That the programming staff set clear expectations during pre-service training about
    the support they will provide to Volunteers and ensure those expectations are met.

17. That the country director review with the staff all required EAP responsibilities so
    they are fully prepared to respond to emergencies at the post.

18. That the country director ensure that staff have inspected all prospective Volunteer
    housing and that it meets the post’s criteria before a Volunteer’s arrival.

19. That the country director ensure that staff have inspected all current Volunteer
    housing and that it meets post’s criteria.

20. That the post develop a staff handbook of standard operating procedures.

21. That region and post establish a succession plan for leadership positions, such as
    overlapping the country director and PTO positions for a training period during the
    next transition.

22. That post assess financial contributions of partnerships and define the terms per
    agency guidance.

23. That post develop a risk analysis for expanding into new areas and collaborating with
    partners and make decisions accordingly.
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
MEMORANDUM

To:           Kathy Buller, Inspector General

From:         Roger Conrad, Regional Director, Inter-America and Pacific

Date:         May 12, 2010

Subject:      Preliminary Audit Report on Peace Corps/Suriname


Enclosed please find the Regional response to the recommendations made by the Inspector General for
Peace Corps Suriname, as outlined in the Preliminary Program Evaluation Report on Peace Corps Suriname.

The Region concurs with all 23 recommendations.
1. That the post, in consultation with OPATs Partnership Development Unit, review current
partnership agreements and make adjustments where necessary.
    Concur: Post had a phone conversation on April 28th, 2010 with Andrew Neustaetter, Emily
    Dutterer, and Howard Anderson from OPATS Partnership Development Unit to discuss the status of
    Post’s agreements and support available from PDU. In April 2010, Post also drafted a letter of
    agreement with the Medical Mission, which is also under review. Post has completed community
    partnership agreements for Suriname Group 15 who arrived in May 2009.
    Date of completion: June 15, 2010

2. That the post, in consultation with General Counsel, develop agreements or memoranda of
understanding with all partner organizations.
    Concur: In December 2009, Post determined that the partnership agreement with UNICEF required
    an MOA and has been working with Lien Galloway in the Office of the General Counsel on this
    agreement. Post drafted an MOA, which was then reviewed by OGC and now it is being reviewed by
    the representatives of UNICEF in country. Post will consult GC on additional MOU/MOAs with
    future partner organizations.
    Date of Completion: August 31, 2010

3. That the Agency formalize and widely disseminate the existing Volunteer assignment MOU
template.
    Concur: The Office of Global Operations and the Office of the General Counsel will revise, as
    necessary, the Standard Volunteer Placement MOU template and disseminate it widely. The template is
    currently available on the Peace Corps intranet.
    Date of Completion: July 31, 2010

4. That the Agency develop guidelines that address partnerships with NGOs, government
ministries and other entities, including circumstances when the MOU should be used and when
the post should seek advice from OGC.
    Concur: The Office of Global Operations, Office of Public Engagement, Office of Intergovernmental
    Affairs, OPATS, and other offices in consultation with the Office of the General Counsel will develop
    guidelines on partnerships with NGOs, government ministries, and other entities. These guidelines will
    include guidance on when to seek advice from OGC.
    Date of Completion: July 31, 2010

5. That the post incorporate Program and Training Booklet 5 strategies for on-going partnership
with the community into its site development manual, and align staff training programs
accordingly.
    Concur: The Site Identification, Selection, and Preparation Manual has been revised since the
    Program Audit was conducted in March 2009. Post is planning to make additional revisions to the
    manual that align with these recommendations. Additionally, the Programming and Training Booklet
    5, which is also under revision by OPATS, will be used to gather more ideas regarding
    recommendations. All staff involved in the Site Identification, Selection, and Preparation Process will
    be trained in August and September 2010.
     Date of Completion: September 2010 and ongoing

6. That the post clearly define the criteria used to assess community receptivity and readiness for
hosting a Volunteer and include this criteria in its site assessment activities.
     Concur: Post clearly defines the criteria used to assess community receptivity and readiness for
     hosting a Volunteer in the updated site assessment section in the SIP on programmatic viability. This
     criteria will be used in site assessment. We are also looking at some best practices from other posts to
     assess strategies that can be applicable for Suriname. PCVs have been involved in helping to assess
     new communities by visiting the new site and conducting an assessment of the site in an informal
     setting. PCVS are spending 1-2 days at the site and talk about Peace Corps and the role of the PCV.
     Date of Completion: July 1, 2010

7. That the post, in consultation with OPATS, identify agency best practices for successful
community partnerships and include these strategies in its Volunteer training and support
programs.
     Concur: Post reported this challenge in its 2009 Project Status Report and discussed best practices
     with both OPATS and Region staff during PSR debrief teleconferences and during the January 2010
     visit to post by an OPATS specialist.
     During the annual strategic planning process, Post staff and Volunteers determined that identifying an
     appropriate Counterpart during the site identification and preparation (SIP) process is extremely
     difficult. Therefore, a new approach will be used during the 2010-11 SIP process; a Community
     Contact will be identified during staff SIP visits but the primary Project Partner(s) for the PCV will be
     identified by the PCV her or himself after a period of living in the community for approximately 2.5
     months. The role of the community contact will be to serve as a first liaison between the PCT/PCV
     and the community. The community contact will welcome the PCT/PCV to the community, introduce
     him/her to the village leadership and other members of the community, and educate the PCT/PCV
     about the cultural normsin the village. The community contact is also the first contact for the PC
     office regarding programming or safety issues. After being at site for approximately 2.5 months the
     PCV will identify one or more project partners to work with. The community contact could potentially
     be a project partner as well, but this is not a requirement.
     Current Volunteers serving in the same region will visit each village for a 24 to 48 hour period to
     orient the Community Contact prior to the new PCV’s arrival at site. Orientation for the PCV-
     identified Project Partner(s) will occur in regional conferences that will occur within three months of
     the new PCV’s arrival at site. This information will be included in Post’s SIP manual.
     We are in ongoing consultation to implement sector-specific strategies with OPATS Specialists Holly
     Christofferson for Business and Marguerite Joseph with health.
     Date of Completion: July 1, 2010

8. That the post poll Volunteers on the successful strategies they have employed to identify
community partners and educate communities on their role and that it include these strategies in
its Volunteer training and support programs.
     Concur: Post informally polled Volunteers on successful strategies for identifying community partners
     and educating interior communities on their role. Additionally, COSing PCVs provide this information
     in their final site report. The information gleaned from these surveys helps inform training session
     such as the “Working with Project Partners” session that focuses on understanding the Surinamese
     cultural context of community work and challenges Volunteers might face within it.
     Date of Completion: Spring 2010

9. That the country director work with OPSI to institute a process to ensure that all funding for
community projects is acquired and reported on in accordance with agency policy.
     Concur: The country director has contacted OPSI to request assistance in reviewing current practices,
     making improvements and assuring that Post’s policy is in accordance with the agency.
     Date of Completion: June 15, 2010

10. That the post train Volunteers on the policies related to funding for community projects.
     Concur: Post has issued new policies and practices related to soliciting and managing funding for
     community projects. These policies have been disseminated through email, hard copy and during in-
     service trainings including the Early Service Training (PDM Overview), the Project Design and
     Management (PDM) TOT.
     In addition, Program Managers now have a review meeting with Volunteers, about a project they are
     planning to submit for funding. During these meetings PM and PCV discuss the role of the volunteer
     and the importance of having the project funds managed by the community.
     Date of Completion: May 2010

11. That the post develop and implement a mechanism to fully assess the community cultural
makeup, traditions, and other related factors for communities that host Volunteers.
     Concur: Over the past years, Post’s focus has been mainly geared towards the Upper Suriname River.
     With (1) the expanding of the number of PCT’s coming in, (2) having PCVs in nearly all villages along
     the Upper Suriname river, (3) and more requests coming in to place PCVs in other regions of
     Suriname which are underserved. Post has to adjust the training on Cross Cultural Understanding. Post
     contacted several organizations working in “newly” developed regions and community based
     organizations to participate in Site Fairs and invited representatives of those organizations and current
     PCVs to either help to strengthen training preparation and implementation. Post continues to focus on
     strengthening this as PCVs of the Upper Marowijne River and the city/district area’s have been asked
     specifically what they would like us to include in training regarding cross cultural understanding.
     In addition, due to the diversity of staff that is representative of the diversity of the country, staff is
     routinely asked for input.
     Date of Completion: May 2010 and ongoing

12. That the post use this information to develop pre-service training to prepare future Volunteers
for the challenges they will face during service in their community.
     Concur: During the Training of Trainers for the upcoming training class, the Program Manager has
     prepared a new session on cross-cultural understanding. The cultural section in the language
     workbooks is also updated to include information provided by PCVs during site visits about cultural
     challenges they face.
     Date of Completion: April 27, 2010

13. That the post provides core and sector competencies and related learning objectives to confirm
implementation of the TDE process.
     Concur: In January 2010 Post, in conjunction with an OPATS specialist, developed and refined core
     and sector competencies and related learning objectives.
     Date of Completion: January 2010

14. That the post establish training targets and use the targets to assess Trainees/Volunteers.
     Concur: The TDE process was reviewed with the support of an OPATS Specialist in January 2010.
     Post re-examined KSAs in light of project changes, updated core and sector competencies, and
     updated terminal and enabling learning objectives for these competencies (which serve as the training
     targets for the 27-month continuum of learning).
     The Trainee Assessment Packet (TAP) for the health and the business projects was updated to include
     the 15 terminal learning objectives. Trainees will self-assess twice during PST, at which time Training
     staff will also provide an assessment of each trainee on the same learning objectives.
     Volunteers are assessed during site visits from Program Managers and Programming & Training
     Specialists. The CD and PTO also visit Volunteers and provide informal assessments. Volunteers are
     also assessed at in-service training events such as EST, MST, and COS.
     Date of Completion: January 2010

15. That the post assess the work distribution of programming staff and ensure that all functions
are covered.
     Concur: Beyond intensive work on the TDE process, site identification and preparation manual, and
     relationship building, staff has also allocated substantial time to assessing the work distribution of
     programming staff and ensuring that all functions are covered. Many priorities have now been
     addressed which has freed up several staff members’ time. During a review of IPBS goals and
     objectives for 2009, work distribution and staffing resources were analyzed and assignments were
     allocated to each staff member. Each staff member was responsible to coordinate, plan, and execute 1-
     2 of the goals mentioned in the IPBS. This helped to lessen the burden on staff to focus on multiple
     topics at once. As a result, a Program and Training Specialist was hired for each project and PST funds
     were reallocated to allow for a short term Program Assistant for the duration of PST. This will allow
     full coverage of Volunteer support functions throughout the year.
     PMs do recognize the importance of bonding with PCVs and personally becoming engaged in their
     activities. Peace Corps Suriname has worked to better define the roles and responsibilities within the
     P&T unit feel that the adequate importance is now placed upon interaction and support between
     Project Managers and PCVs. PMs try as much as possible to have phone conversations, email
     conversations or person to person conversations with each PCV at least once per month. PMs and
     PCVs also agreed to a list of core expectations for PMs and PCVs.
     Date of Completion: March 2010
16. That the programming staff set clear expectations during pre-service training about the support
they will provide to Volunteers and ensure those expectations are met.
     Concur: During PST, EST and MST a session on expectations will be provided by PMs. This will give
     an opportunity to both PCTs/PCVs and staff to discuss the challenges and applaud the successes in
     the relationship. This was developed during a visit by Randy Adams and Mike McCabe in 2008.
     Date of Completion: July 2010

17. That the country director review with the staff all required EAP responsibilities so they are fully
prepared to respond to emergencies at the post.
     Concur: The Peace Corps Country Director has reviewed all required EAP responsibilities with staff
     and has practiced them during the Crisis Management Overview and Exercise held March 26 and 27,
     2009.
     Date of Completion: March 2009

18. That the country director ensure that staff have inspected all prospective Volunteer housing and
that it meets the post’s criteria before a Volunteer’s arrival.
     Concur: A Housing Coordinator has been hired as part of the Admin Team. The Housing
     Coordinator and the Safety and Security Coordinator complete housing inspections for all incoming
     trainees prior to the start of PST. Information from the inspections is shared with the Volunteer
     Support Team to determine next steps, if necessary. In addition, a systematic process has been
     included in Post’s Site Identification and Preparation (SIP) Manual for ensuring Volunteer housing
     meets post’s criteria prior to the new Volunteer’s arrival. All prospective Volunteer housing will be
     checked prior to Volunteer arrival.
     Date of Completion: June 1, 2010 and ongoing

19. That the country director ensure that staff have inspected all current Volunteer housing and that
it meets post’s criteria.
     Concur: Recognizing this as a complex challenge in Suriname, PC Suriname’s Country Director
     implemented a weekly Volunteer Support meeting to address housing and other Volunteer support
     issues. The meeting has been a very successful way of identifying issues and coordinating efforts to
     resolve them in a timely way. In addition, a systematic process has been included in Post’s Site
     Identification and Preparation (SIP) Manual for ensuring Volunteer housing meets post’s criteria prior
     to the new Volunteer’s arrival.
     A full inspection of current Volunteer housing was conducted during PCV site visits to ensure that all
     current housing meets post’s criteria. Programming staff have been trained on how to conduct an
     inspection and a check list has been created for them to complete during each site visit. Following the
     site visit, the completed and signed check list is filed.
     Date of Completion: June 1, 2010

20. That the post develop a staff handbook of standard operating procedures.
     Concur: For programming functions, the Site Identification and Preparation (SIP) manual serves as a
     collection of standard operating procedures (SOP) relevant to the SIP process. For training, Post has
     created a TDE management tool that standardizes many of the processes and procedures concerning
     training design, management, and evaluation, including a database of learning objectives and
     corresponding session plans that can be referred to in the coming years. Post has also created a Staff
     Handbook and several SOPs.
     Date of Completion: January-March 2010

21. That region and post establish a succession plan for leadership positions, such as overlapping
the country director and PTO positions for a training period during the next transition.
     Concur: Post is working with the Region to ensure timely hiring of a PTO to replace the incumbent
     who will depart in July 2010 and to establish a succession plan using the template provided by the
     Region. This transition document clearly details priority action items, location of key files, and a
     general overview of programming and training. If logistically and financially feasible, post would
     welcome overlap between the current and new PTO. There was a two-week overlap of the outgoing
     and incoming CD in March 2010. The two CDs spent time reviewing IPBS, examining staff strengths
     and areas for development, and key partnerships.
     Date of Completion: March 2010 and July 2010

22. That post assess financial contributions of partnerships and define the terms per agency
guidance.
     Concur: Program staff have been oriented on communicating the distribution of costs clearly to
     community partners and a written explanation of respective responsibilities is now included in the
     community agreement. The community responsibility of Volunteer housing costs is stated in the SIP
     manual.
     Date of Completion: March 2010

23. That post develop a risk analysis for expanding into new areas and collaborating with partners
and make decisions accordingly.
     Concur: The Post has consulted Programming and Training Specialist from IAP, Amy Johnson, who
     will share examples of effective ways to assess risk from other Posts in the Region. Post will develop a
     mechanism based on its needs and best practices.
     Date of Completion: September 2010
APPENDIX B

                               OIG COMMENTS
Management concurred with all 23 recommendations. Based on the documentation
provided, we closed 16 recommendations: numbers 5, 6, 7, 8, 11, 12, 13, 14, 15, 16, 17,
18, 19, 20, 21, 22. In its response, management described actions it is taking or intends
to take to address the issues that prompted each of our recommendations. We wish to
note that in closing recommendations, we are not certifying that the region or post has
taken these actions or that we have reviewed their effect. Certifying compliance and
verifying effectiveness are management’s responsibilities. However, when we feel it is
warranted, we may conduct a follow-up review to confirm that action has been taken and
to evaluate the impact.
Seven recommendations: numbers 1,2,3,4, 9, 10, and 23, remain open pending
confirmation from the chief compliance officer that the documentation reflected in OIG
Analysis below is received.

1. That the post, in consultation with OPATs Partnership Development Unit, review
current partnership agreements and make adjustments where necessary.
Agency Response:
     Concur: Post had a phone conversation on April 28th, 2010 with Andrew
     Neustaetter, Emily Dutterer, and Howard Anderson from OPATS Partnership
     Development Unit to discuss the status of Post’s agreements and support available
     from PDU. In April 2010, Post also drafted a letter of agreement with the Medical
     Mission, which is also under review. Post has completed community partnership
     agreements for Suriname Group 15 who arrived in May 2009.
     Date of completion: June 15, 2010

OIG Analysis:
     To close recommendations number 1, please provide updated partner agreements
     or results of discussions with OPATS PDU and OCG that determine current
     agreements are sufficient.


2. That the post, in consultation with General Counsel, develop agreements or
memoranda of understanding with all partner organizations.
Agency Response:
     Concur: In December 2009, Post determined that the partnership agreement with
     UNICEF required an MOA and has been working with Lien Galloway in the Office
     of the General Counsel on this agreement. Post drafted an MOA, which was then
     reviewed by OGC and now it is being reviewed by the representatives of UNICEF
     in country. Post will consult GC on additional MOU/MOAs with future partner
     organizations.
     Date of Completion: August 31, 2010
APPENDIX B

OIG Analysis:
     To close recommendations number 2, please provide updated partner agreements
     or results of discussions with OPATS PDU and OCG that determine current
     agreements are sufficient.


3. That the Agency formalize and widely disseminate the existing Volunteer
assignment MOU template.
     Concur: The Office of Global Operations and the Office of the General Counsel
     will revise, as necessary, the Standard Volunteer Placement MOU template and
     disseminate it widely. The template is currently available on the Peace Corps
     intranet.
     Date of Completion: July 31, 2010

OIG Analysis:
     The OIG confirmed that two links to the standard placement template are listed on
     OGC’s intranet page. We recognize that the agency is determining if revisions to
     the Standard Volunteer Placement MOU template are required in conjunction
     with actions to close recommendation 4. To close recommendation number 3,
     please provide documentation of those revisions and evidence of wide
     dissemination.


4. That the Agency develop guidelines that address partnerships with NGOs,
government ministries and other entities, including circumstances when the MOU
should be used and when the post should seek advice from OGC.
Agency Response:
     Concur: The Office of Global Operations, Office of Public Engagement, Office of
     Intergovernmental Affairs, OPATS, and other offices in consultation with the Office
     of the General Counsel will develop guidelines on partnerships with NGOs,
     government ministries, and other entities. These guidelines will include guidance on
     when to seek advice from OGC.
     Date of Completion: July 31, 2010

OIG Analysis:
     To close recommendation number 4, please provide documented guidelines.


9. That the country director work with OPSI to institute a process to ensure that all
funding for community projects is acquired and reported on in accordance with
agency policy.
Agency Response:
     Concur: The country director has contacted OPSI to request assistance in reviewing
     current practices, making improvements and assuring that Post’s policy is in
     accordance with the agency.
APPENDIX B
     Date of Completion: June 15, 2010

OIG Analysis:
    To close recommendation number 9, please provide post’s new policies and
    practices related to soliciting and managing funding for community projects and
    results of discussions with OPSI.


10. That the post train Volunteers on the policies related to funding for community
projects.
Agency Response:
     Concur: Post has issued new policies and practices related to soliciting and
     managing funding for community projects. These policies have been disseminated
     through email, hard copy and during in-service trainings including the Early Service
     Training (PDM Overview), the Project Design and Management (PDM) TOT.
     In addition, Program Managers now have a review meeting with Volunteers, about a
     project they are planning to submit for funding. During these meetings PM and PCV
     discuss the role of the volunteer and the importance of having the project funds
     managed by the community.
     Date of Completion: May 2010

OIG Analysis:
    The post provided documentation on the PDM session related to budget and
    financial protocols. However, this recommendation is in tandem with
    recommendation 9 and will not be closed until OPSI determines that the process is
    in compliance.


23. That post develop a risk analysis for expanding into new areas and collaborating
with partners and make decisions accordingly.
Agency Response:
     Concur: The Post has consulted Programming and Training Specialist from IAP,
     Amy Johnson, who will share examples of effective ways to assess risk from other
     Posts in the Region. Post will develop a mechanism based on its needs and best
     practices.
     Date of Completion: September 2010

OIG Analysis:
To close recommendation number 23, please provide a risk assessment mechanism.
APPENDIX C


         PROGRAM EVALUATION COMPLETION
               AND OIG CONTACT

OIG CONTACT        Following issuance of the final report, a stakeholder
                   satisfaction survey will be distributed. If you wish to
                   comment on the quality or usefulness of this report to help
                   us improve our products, please e-mail Jim O’Keefe,
                   Assistant Inspector General for Evaluation and Inspection,
                   jkeefe@peacecorps.gov, or call 202.692.2904.

                   This program evaluation was conducted under the
STAFF              direction of former Assistant Inspector General for
                   Evaluations, Shelley Elbert and Deputy Inspector General
ACKNOWLEDGEMENTS
                   Joaquin Ferrao and by Evaluator Susan Gasper.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, abuse, and mismanagement related to
Peace Corps operations domestically or abroad. You can report
allegations to us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  800.233.5874
               Washington Metro Area:              202.692.2915

Fax:           202.692.2901

Email:         oig@peacecorps.gov
